July 30, 2008

KATE F. WILEY
DISTRICT MANAGER, ATLANTA DISTRICT

SUBJECT: Audit Report – Management of Delivery Point Sequencing Percentage
         Increases for City Delivery – Southeast Area, Atlanta District
         (Report Number DR-AR-08-005)

This report presents the results of our audit of the Management of Delivery Point
Sequencing (DPS) Percentage Increases for City Delivery in the Southeast Area, Atlanta
District located in Georgia (Project Number 07XG040DR000).1 Increasing the DPS
percentage for city delivery is a top priority for the U.S. Postal Service and an important
cost reduction strategy for delivery operations. The objective was to determine if the
Postal Service had adequately implemented established processes that include key
oversight controls to increase city delivery DPS percentages and reduce operating costs.
Click here to go to Appendix A for additional information about this audit.

Conclusion

Although the DPS percentage for the Southeast Area has increased from 82 percent in
fiscal year (FY) 2007 to 91 percent in June 2008, opportunities exist to further improve
DPS percentages in the Atlanta District.

Management of DPS – City Delivery – Atlanta District

We concluded that while the Postal Service has established processes,2 including
oversight controls to increase city delivery DPS percentages and reduce operating costs,
the delivery unit officials had not always implemented established processes for:

    •    Updating address databases in a timely manner.
    •    Monitoring M-Records.
    •    Reporting missent, missorted, and missequenced (3M) data.

1
   DPS is a process to sort bar-coded letter mail at the processing plants and delivery units into the carrier’s Line of
Travel (LOT). Mail is then taken directly to the street, with no casing time in the office. The Postal Service DPS
percentages results are for city delivery only. We plan to perform a separate review of the management of DPS for
rural delivery.
2
  In FY 2005, the Vice President, Delivery and Retail, issued a letter stating that all delivery and retail units were to
officially implement Standard Operating Procedures (SOP) beginning in FY 2006 for managing all delivery and retail
functions. In addition, in FY 2008, officials issued the Morning Standard Operating Procedures (AMSOP) II Guidebook,
Field Operations Standardization Development, which re-emphasize the SOP.
Management of Delivery Point Sequencing Percentage                                                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


    •   Reporting mail arriving late.
    •   Handling non-DPS mail.
    •   Measuring mail volume.

Officials indicated this occurred because preparing the mail for delivery took precedence
over these processes. In addition, while the Atlanta District officials established an
oversight team (called the DPS Improvement Team) in 2006, it was ineffective because
officials did not maintain staff accountability for assigned tasks. Click here to go to
Appendix B for our detailed analysis of this topic.

As a consequence, during FYs 2005 to 2007, the Atlanta District scored an average DPS
of 80 percentage points, 15 points below the national goal of 95 percent.3 The Postal
Service also incurred additional labor costs because city carriers had to manually case
letter mail. We estimate the Atlanta District unnecessarily incurred unrecoverable labor
costs of $9,574,823, and without taking corrective actions, will incur another $3,738,011
by 2009. We will report this monetary impact of $13,312,834 in our Semiannual Report to
Congress. Click here to go to Appendix C for our detail analysis of the monetary impact.

We recommended the Atlanta District Manager:

1. Require unit officials to prioritize the tasks associated with resolving specific Delivery
   Point Sequencing (DPS) issues in their delivery units and develop an action plan to
   mitigate the low city DPS percentage.

2. Require the team leader and other members to be accountable for completing tasks
   assigned by the DPS Improvement Team.

Management’s Comments

Management agreed with our recommendations and monetary impact of $13,312,834
that consists of $9,574,823 in unrecoverable questioned costs and $3,738,011 in funds
put to better use over the next 2 years. Management reestablished the DPS
Improvement Team for each processing plant with representatives from all the key
components.4 The team meets regularly to establish general process improvements,
accountability, and specific targets. Team members assign tasks and evaluate results in
follow-up meetings. Management holds daily telecoms with low-performing delivery units,
the plants, and in-plant support personnel to provide accountability. Management
improved measurement systems, established policy, updated systems and processes,
and enhanced reporting of DPS percentages. Management also stated they improved
accountability by adding DPS goals and measures for representatives on the DPS


3
 Per the 2006 - 2010 Postal Service’s Strategic Transformation Plan, this goal is for city delivery carriers only.
4
 Address Management, Operations Programs Support – Operations Support Specialist, In-Plant Support – Operations
Support Specialist, Managers Post Office Operations (MPOO), Postal Career Executive Service, Postmaster, Plant
Processing and Distribution – Managers Distribution Operations (MDO), and Marketing.




                                                        2
Management of Delivery Point Sequencing Percentage                                         DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


Improvement Team and for specific functional managers,5 and reissuing policies and
procedures. We have included management’s comments, in their entirety, in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to the recommendations in the report.

We will report unrecoverable questioned costs of $9,574,823, and $3,738,011 of funds
put to better use in our Semiannual Report to Congress. The OIG considers
recommendation 1 significant and, therefore, it requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when management completes
corrective actions. This recommendation should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
Management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Jordon M. Smalls
    Jim Kiser
    Terry J. Wilson
    David Patterson
    Bruce Derouen
    Joey Mauldin
    Katherine S. Banks




5
 These include the DPS Team leader, Manager, Address Management System (AMS), Plant MDO and staff, MPOOs,
Postmasters, Station Managers, and other Operations Managers.




                                                       3
Management of Delivery Point Sequencing Percentage                                                         DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service implemented DPS approximately 15 years ago, to change the
automation environment and the way mail is processed and letters delivered. The goal
of DPS is to process and sort bar-coded letter mail at the plants and units into the
carrier’s LOT so the carrier can take the mail directly to the street, with no casing or pull
down6 time in the office. This process reduces operating cost, improves accuracy and
speed of delivery, and contributes to improved customer satisfaction.

The DPS letter mail is sorted into the carrier’s LOT with the creation and update of sort
program information as part of the Sort Program System. Next, officials transfer sort
program information to the Mail Processing Equipment (MPE), which consists of Delivery
Barcode Sorters (DBCS) and Carrier Sequence Barcode Sorters (CSBCS).7 When the
MPE cannot sort all of the letter mail to the carrier’s LOT, unit officials receive the letter
mail for carriers to manually sort and deliver to street addresses.

The Postal Service is striving to establish DPS for all city delivery routes. On average,
since FY 2005, city routes have received approximately 80 percent of their letters from
the processing plants in DPS, with approximately 83 percent in DPS in FY 2007. (See
Chart 1.) Postal Service officials established a DPS goal of 85 percent for FY 2007
and 89 percent for FY 2008 in the National Performance Assessment (NPA).8 The
goal increases to 95 percent by 2010. 9




6
  City delivery carriers “case” mail by manually sorting it into distribution slots in delivery sequence / carrier’s LOT. They
“pull down” mail by extracting it from the distribution slots and placing it into trays for delivery to street addresses.
7
  The DBCS is the central component of the Postal Service’s letter automation program. Officials use the CSBCS in
smaller postal facilities.
8
  The Postal Service NPA is a web-based system that collects performance-related metrics. Officials translate these
metrics into web-based balanced scorecards that can be used to monitor the performance of both the entire enterprise
and of individual units across the nation. Officials did not establish a NPA until FY 2007.
9
  Per the 2006- 2010 Strategic Transformation Plan, this goal is for city delivery carriers only.




                                                              4
         Management of Delivery Point Sequencing Percentage                                                     DR-AR-08-005
          Increases for City Delivery – Southeast Area, Atlanta District




         For FYs 2005 to 2007, officials processed over 277 billion letter mailpieces nationally,
         approximately 20 percent with carriers’ manual casing and 80 percent through
         automation. The overall salary expenses accounted for approximately $50.8 billion based
         on 1.4 billion workhours.10 For FY 2008, officials budgeted approximately $16.9 billion for
         city delivery salary expenses based on 455 million workhours. (See Table 1.)

                   Table 1. Postal Service Letter Mail Processed in Pieces, Salary and Workhours – Nationwide
                                                       FYs 2005 through 2007
                                                                                         Cased
Fiscal         DPS Letters        Cased Letters          Total Letter         DPS        Letters
Years            (Pieces)            (Pieces)              (Pieces)          Percent     Percent     Salary Expense         Workhours
2005          72,270,819,511      21,846,660,416       94,117,479,927           76.8        23.2     $16,525,494,018        462,229,206
2006          74,404,492,341      18,929,268,976       93,333,761,317           79.7        20.3     $17,156,481,479        465,158,153
2007          74,526,516,098      15,431,278,409       89,957,794,507           82.8        17.2     $17,167,408,685        460,322,311
Total         221,201,827,950     56,207,207,801       277,409,035,751          79.8        20.3     $50,849,384,182       1,387,709,670
                                         Source: Web EIS and Postal Service Field Budget11

         During the same period in the Southeast Area officials processed approximately 30 billion
         letter mailpieces, approximately 18 percent by carrier’s manual casing and 82 percent
         through automation. The city delivery salary expenses accounted for approximately
         $5.3 billion based on 144.9 million workhours. For FY 2008, approximately $1.8 billon
         was budgeted for salary expenses based on 47.8 million workhours.




         10
            These workhours includes straight time, overtime, penalty overtime, etc. for supervisors and employees (carriers,
         clerks, mailhandlers, etc).
         11
            For Table 1 and Table 2 the DPS letters, cased letters, and DPS percentage were from WebEIS. The salary
         expense and workhours were from the FY 2006, FY 2007, and FY 2008 Field Budget.




                                                                    5
   Management of Delivery Point Sequencing Percentage                                                DR-AR-08-005
    Increases for City Delivery – Southeast Area, Atlanta District

                     Table 2. Postal Service Letter Mail Processed in Pieces, Salary and Workhours
                                       Southeast Area for FYs 2005 through 2007
                                   Cased                                       Cased        Salary         Workhours
 Fiscal        DPS Letters         Letters       Total Letter         DPS      Letters     Expense
 Years           (Pieces)         (Pieces)         (Pieces)          Percent   Percent
 2005          8,081,323,156   2,135,000,129    10,216,323,285          79%       21%    1,733,244,365     48,069,840
 2006          8,423,857,074   1,932,789,775    10,356,646,849          81%       19%    1,812,426,973     48,774,591
 2007          8,525,093,224   1,527,863,669    10,053,956,923          85%       15%    1,794,365,211     48,044,275
Total         25,030,273,454   5,595,653,603    30,626,927,057         82%        18%    5,340,036,549     144,888,706
                                   Source: Web EIS and Postal Service Field Budget

   Beginning in FY 2006, the Vice President, Delivery and Retail, officially implemented SOP
   for managing all delivery and retail functions, which were re-emphasized in FY 2008 with
   issuance of the Morning Standard Operating Procedures (AMSOP) II Guidebook, Field
   Operations Standardization Development. As part of these procedures, district officials
   were mandated to create a DPS Improvement Team, made up of functional
   representatives, to focus on specific issues affecting DPS percentages in delivery units
   and document offices visited and the results of efforts. At the unit level, officials must
   develop a plan to prioritize improvement opportunities and activities.

   Southeast Area officials implemented several initiatives to enhance the ability to increase
   the area’s DPS mail percentage. The initiatives have been broad in scope, but focused
   on specific results. The initiatives included continuing area emphasis on, and monitoring
   the use of, the SOP edit book, mail volume recording, cross functional communication,
   and station input and backflow processes.

   OBJECTIVE, SCOPE, AND METHODOLOGY

   The objective was to determine if the Southeast Area’s Atlanta District had adequately
   implemented processes that include key oversight controls to increase city delivery DPS
   percentages and reduce operating costs.

   We selected the Atlanta District because it had one of the lowest DPS percent averages
   (80 percent) for FYs 2005 to 2007 in the Southeast Area. Within the Atlanta District, we
   judgmentally selected the Acworth, Alpharetta, Central City, Ralph McGill, Stone
   Mountain MPO, Marietta Delivery Distribution Center (DDC), Forest Park, and Lagrange
   locations out of a total of 126 unit locations. We selected the unit locations based on
   similarities in the areas of DPS mail volume, type of facility, whether or not the unit had
   MPE, number of city routes, and DPS quality percentages for FYs 2005 to 2007.

   To accomplish our objective, we:

          •   Conducted observations at the Crown Processing and Distribution Center (P&DC)
              and made site visits to delivery unit locations to evaluate the DPS process and
              determine what factors were contributing to low DPS percentages.




                                                          6
Management of Delivery Point Sequencing Percentage                                                 DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


     •   Obtained DPS percentages from WebEIS for all Postal Service areas, all districts
         in the Southeast Area, and the 126 DPS delivery units in the Atlanta District for
         FYs 2005 through 2007 to identify high and low DPS percentages, cased letter
         volume and DPS letter volume.
     •   Reviewed missent, missorted and mis-sequence mail (referred to as 3M) reports
         for a 2-week period to determine if unit officials were reporting and analyzing 3M
         data.
     •   Reviewed the March 2008 High-Rise Analysis reports12 from the Delivery Sortation
         Management Automated Research Tool (DSMART) to determine if unit officials
         were monitoring M-Records13 for possible removal of data from the AMS sort plan.
     •   Reviewed Electronic Uncoded Address Resolution Service (eUARS) data for
         February 2008 to determine the number of unresolved records that contribute to
         inaccurate database information.
     •   Reviewed Daily Telecon and Customer Service Daily Reporting System (CSDRS)
         reports for various periods in FY 2008 to determine if the units were recording and
         reporting late arriving mail and non-DPS mail issues using sources other than the
         Integrated Operating Plan (IOP) Discrepancy Report and Electronic Mail
         Improvement Reports (EMIRS).
     •   Reviewed unit workhours in labor distribution xxxx xx, Carrier Customer Support
         Activities to determine the number of hours allotted to update DPS support
         systems.
     •   Interviewed Postal Service officials at headquarters, the Southeast Area, the
         Atlanta District and eight unit locations to evaluate the DPS percentages and
         determine the level of DPS oversight of city delivery.

We conducted this review from September 2007 through July 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances.14 Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on May 30, 2008, and included their comments
where appropriate. We relied on data obtained from Postal Service database systems.
We did not directly audit the systems, but performed a limited data integrity review to
support our data reliance.



12
   A High Rise Analysis Report is a report from DSMART used to track the total amount of M-Records in the system for
a delivery point.
13
   M-Records are used for extracting Multiple Point Deliveries from DPS mail. Many times carriers request mail
deliveries to be set as an M-Record for their convenience. Too many M-Records will reduce DPS percentages. For
these reasons, M-Records should be evaluated before entering SPS (Sort Program System) Station Input (SSI).
14
   We performed an analysis of the SOP requirements for DPS and reviewed those areas specific to delivery operations
and applicable to tasks and oversight to increase city delivery DPS percentages and reduce operating costs.




                                                         7
Management of Delivery Point Sequencing Percentage                                        DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District



PRIOR AUDIT COVERAGE

The OIG has issued three reports related to our objective.


                                              Report                 Final Report
             Report Title                     Number                     Date         Monetary Impact

   Review of Postal Service            MS-AR-08-001               November 8, 2007     $103.4 million
   First-Class Permit Reply
   Mail
   Address Management                  DR-AR-07-012               August 29, 2007       $26.9 million
   System Information
   National Capping
   Delivery and Retail                 DR-MA-07-003               February 22, 2007              N/A
   Standard Operating
   Procedures National
   Capping

1. The Review of Postal Service First-Class Permit Reply Mail (PRM) Report identified
   that the Postal Service generally processes PRM mail pieces in accordance with their
   approved classification and pricing, as outlined in the Domestic Mail Manual (DMM).
   However, employees manually process approximately 70 percent of the approved
   First-Class two-way DVD return mail pieces from one DVD rental company because
   these mail pieces sustain damage, jam equipment and cause missorts during
   automated processing. Nonmachinable mail pieces are subject to a surcharge.
   However, the DMM does not currently address the characteristics of the mailer’s two-
   way DVD return mail piece that make it nonmachinable.

2. The Address Management System Information National Capping Report identified that
   district officials in eight areas effectively managed delivery AMS quality review results
   for approximately 10 percent (8,518 of 88,418) of their routes according to Postal
   Service guidelines. District AMS officials did not conduct additional street reviews for
   the remaining routes due to limited staff and a priority on timely mail delivery.
   However, opportunities exist for area officials to implement best management
   practices from the New York Metro Area’s New York District to improve the quality of
   AMS data to process and deliver the mail.

3. The Delivery and Retail Standard Operating Procedures National Capping Report
   identified that opportunities existed to improve implementation of the Delivery and
   Retail SOP. Although all nine Postal Service areas implemented the City Delivery
   Operations SOP, we identified possible improvements in AMSOP, IOPs, volume
   recording, DPS, and matching workhours to workload.




                                                       8
Management of Delivery Point Sequencing Percentage                                                     DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District



                                  APPENDIX B: DETAILED ANALYSIS

Opportunities to Improve Management of DPS – City Delivery – Atlanta District

Although the DPS percentage for the Southeast Area has increased from 82 percent in
FY 2007 to 91 percent in June 2008, opportunities exist to further improve the DPS
percentages in the Atlanta District. District officials can improve by adhering to processes
and increasing oversight to further increase its DPS percentage and reduce operating
costs. These processes include updating address databases in a timely manner,
monitoring M-Records, reporting 3M data, reporting mail arrival issues, handling non-DPS
mail, and measuring mail volume.

Delays in Updating Address Databases
Delivery unit officials delayed updating address information in the DPS support systems,15
which contributed to low DPS percentages.16 Our review of eUARS data for the eight unit
locations identified 300 unresolved records that took between 6 and 21 days to resolve,
contributing to invalid delivery addresses in the AMS database sort plan used to sort the
mail in the carrier’s LOT. (See Table 3.) These invalid addresses result in mail arriving at
the units without being processed in DPS, requiring carriers to manually case it before
street delivery. Unit officials stated that delays in updating AMS database information
were due to limited staff availability resulting from other assigned duties such as
preparing mail for delivery. We reviewed labor distribution xxxx xx, Carrier Customer
Support Activities, where officials have budgeted hours for updating address database
information. Our review indicated workhours were charged to the code; however, we
could not determine the specific tasks accomplished.17 During the audit, district officials
conducted reviews at two units and confirmed that inaccurate and incomplete database
information exist. At the two units, officials identified and corrected 42 missing delivery
points in the AMS sort plan, and 1,269 business names in DSMART.18 Our review at the
unit location with high DPS percentage identified that unit officials' best practices included
workhours specifically allotted for a full-time staff position to focus on ensuring updates to
DPS support systems.




15
   The DPS support systems include the AMS, eUARS, and DSMART.
16
   Our prior audit report titled, Address Management System Information – National Capping (Report Number DR-AR-
07-012, dated August 29, 2007), identified opportunities to improve database management.
17
   We plan to perform a separate review on Management of xxxxx, Carrier Customer Support Activities.
18
   DSMART is a new online Intelligent Mail and Address Quality tool implemented to identify “DPS leakage” (i.e., when
mail is not processed in sequence) based on the number of “hits” of individual barcodes on live mail falling out of DPS
from the DBCS and CSBCS final pass.




                                                           9
Management of Delivery Point Sequencing Percentage                                                        DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District

     Table 3. Selected Units In the Atlanta District – Site Visit Results – Review of eUARS Information
                                                    xxxxxxx      xxxxxx                 xxxxxxxx      xxxxxx       xxxxx
     Issues              xxxxxxx   xxxxxxxxxx         xxxx        xxxx     xxxxxxxx        xxx        xxxxxx     xxxxxxxx
eUARS
Unresolved                  8            11           62           10           9           23            135         42
Records

Average # of Days           6            8            19           18           8           6             21          17


Inadequate Monitoring of M-Records
Unit officials did not monitor M-Records19 for potential removal from the AMS sort plan,
which contributed to low DPS percentage. Our review at the eight units identified that
officials did not monitor 2,350 M-Records that could be removed from the sort plan,20
resulting in increased letter volume that carriers must manually case. (See Table 4.) Unit
officials stated their primary focus was daily mail delivery operations and there is no
policy that specifically states a timeframe for reviewing M-Records.21 During the audit,
district officials conducted reviews at two units and confirmed opportunities exist for
removal of M-Records. Officials identified and removed 109 M-Records at one of the
units visited, which accounted for a reduction in the case letter volume of approximately
500 letter mailpieces daily. Officials at the unit with a high DPS percentage implemented
best practices including allotting workhours specifically to identify removable M-Record
information during quarterly reviews.

          Table 4. Selected Units In the Atlanta District – Site Visit Results – Monitoring M-Records
                                          xxxxxxx     xxxxxx                    xxxxxxxx          xxxxx      xxxxx
     Issues    xxxxxxx     xxxxxxxxxx       xxxx       xxxx        xxxxxxxx        xxx           xxxxxx    xxxxxxxx        Total
 M–
 Records
 Not
 Monitor-
 ed                 165            266         52          152            275       1,092           320          28      2,350

Inconsistent Daily Reporting of Missent, Missorted and Mis-sequenced Data
Delivery unit officials were not consistently reporting 3M information daily, which
contributed to low DPS. The delay in reporting 3M information lowers DPS percentages
because the carrier has to manually case mail to correct reoccurring errors such as mail
sent to the wrong office, placed on the wrong route, or in the wrong order. At five of the
units, our review of 3M Daily Reporting System data identified that unit officials were not
consistently reporting 3M information over the 2-week period reviewed. (See Table 5.)
Officials must report 3M problems identified to plant officials for corrective action. Unit

19
   M-Records are used for extracting Multiple Point Deliveries from DPS mail. Many times carriers request mail
deliveries to be set as an M-Record for their convenience. Too many M-Records will reduce DPS percentages. For
these reasons, M-Records should be evaluated before entering into SSI.
20
   When a carrier makes a request to district officials to add an M-Record to AMS, a default is created to remove mail
for a multi-point delivery without a secondary address from the DPS process. The clerk and carrier at the unit must
manually case this mail.
21
   We plan to address the issue that the current policy does not specifically state how often the M-Records should be
reviewed in a capping report to headquarters officials.




                                                           10
       Management of Delivery Point Sequencing Percentage                                                         DR-AR-08-005
        Increases for City Delivery – Southeast Area, Atlanta District


       officials stated that delays in daily reporting 3M mail information was due to limited staff
       availability because they were assigned to other duties such as preparing mail for
       delivery. We reviewed labor distribution xxxx xx, Carrier Customer Support Activities,
       where officials have budgeted hours for updating 3M data. Our review indicated
       workhours were charged to the code; however, we could not determine the specific tasks
       accomplished.
                    Table 5. Selected Units In the Atlanta District – Site Visit Results – Review of 3M Information
        Unit                                               xxxxxx       xxxxxx                       xxxxxx    xxxxx        xxxxxxx
        Locations            xxxxxxx       xxxxxxxxx        xxxx         xxxx          xxxxxxxx      xxxxxx   xxxxxxxx        xxx
        Number of
        Times Did Not
        Report 3M
        Over 2 Weeks                   1               7           0             0            0           1           4          25

       Mail Arrival Issues
       Delivery unit officials inconsistently reported receiving late mail as a factor contributing to
       lower DPS percentages. The late mail arrival lowers the DPS percentage for units with
       MPE because the automated process of sorting the mail into DPS is delayed or may not
       occur, resulting in mail sent to the carriers for manual casing. For units without MPE, late
       receipt of mail increases the carrier’s office workhours due to the wait time for the mail
       arrival and manual casing. We observed late mail arrival from a P&DC (see Table 6) at
       one unit location.

       We also identified officials not consistently using the IOP Discrepancy reports, per the
       SOP, to summarize late arriving mail. Officials at six locations reported late mail arrival
       issues using various mechanisms to include the CSDRS, Daily Teleconference reports,
       and e-mail correspondence. Unit officials stated that they are not consistently completing
       IOP Discrepancy reports summarizing late arriving mail issues because other officials22
       do not then resolve the problems. Our review at the unit with a high DPS percentage
       identified best practices implemented, which included an informal system to track P&DC
       processing and dispatch times and continual discussions regarding late arriving mail with
       P&DC officials.

                     Table 6. Selected Units In the Atlanta District – Site Visit Results - Mail Arrival Issues
                                                           xxxxxxx          xxxxxx                     xxxxxxxx     xxxxx       xxxxx
          Issues             xxxxxxx       xxxxxxxxx         xxxx            xxxx       xxxxxxxx23        xxx      xxxxxx     xxxxxxxx
Observation of Late
Mail Arrival                                                                                                                   2 hours
Consistent Use of the
IOP to Report Late Mail
Arrival Issues                  No            No             No                No                                    No          No
                                                                              Daily                                 Daily      Emails,
                                                                            Telecon                               Telecon       Daily
Identification of Various                                                   Reports,                              Reports,     Telecon
Reporting Mechanisms          Emails        CSDRS          CSDRS             Emails                                Emails      Reports


       22
            Officials in the areas of AMS, Operations Programs Support, In-Plant Support, Marketing and Plant Operations.
       23
            xxxxxxxx and xxxxxxxx DDC did not have any mail arrival issues.




                                                                       11
Management of Delivery Point Sequencing Percentage                            DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District



Non-DPS Mail Issues
Delivery unit officials inconsistently reported problems of receiving non-DPS mail as a
factor contributing to low DPS percentages. By not reporting problems, machinable mail
may remain in the mail stream, but be processed manually. This contributes to a lower
DPS percentage. We observed receipt of non-DPS mail pieces at three locations.
Further, officials were not reporting the non-DPS mailpiece issues using the EMIRS for
resolution. Officials stated they were using various reporting mechanisms to include the
CSDRS, Daily Telecon reports, e-mail correspondence, and a locally developed reporting
system. Our review identified there was no formal use of any reporting mechanism at two
of the three units and use of a locally developed reporting tracking system at one unit.
On the other hand, our review at the unit with a high DPS percentage identified best
practices implemented, which included continual discussions with P&DC officials
regarding non-DPS mail.

Mail Volume Measuring
Delivery unit officials used inconsistent methods to measure mail volume, potentially
inflating total mail volume recorded, which could lower DPS percentages. The inflation of
mail volume recorded as cased volume (requiring carriers to manually sort to the LOT)
reduces DPS percentages for automated processing. At one location, unit officials
measured the mail volume with a ruler, while the carriers held the mail by hand. At
another location, unit officials measured the mail volume in the mail tray, without
compressing the mail. During our audit, district officials conducted reviews at two units
and confirmed inaccurate mail volume recording. Officials identified unit supervisors
counting the mail that the MPE processed through first pass and separated by carrier
route, but not in walk sequence (termed 896 mail). The unit supervisors were counting
this mail with cased mail volume even though this mail volume was automatically counted
on the MPE and downloaded into the Delivery Operations Information System. On the
other hand, our review at the unit with a high DPS percentage identified that best
practices implemented included methods for ensuring consistency in mail volume
measurement, such as staging mail in designated areas to eliminate duplicate counting
and correctly compressing mail for volume measurement.

District Officials Oversight to Increase City Delivery DPS Percentages

Atlanta District officials stated they created a DPS Improvement Team in FY 2006 to
monitor, review, and correct specific DPS issues. Formation of the team was required by
the Delivery and Retail SOP. However, early on the team was unsuccessful in increasing
city delivery DPS percentages because officials could not maintain staff accountability for
assigned tasks. By not fully addressing issues contributing to low city delivery DPS
percentages, the Postal Service incurred additional labor costs for city carriers manually
sorting the letter mail. We estimate the additional labor costs to the Atlanta District for
FYs 2006 and 2007 were $9,574,823, and will be $3,738,011 by the end of FY 2009. We
will report this monetary impact of $13,312,834 in our Semiannual Report to Congress as
$9,574,823 in unrecoverable questioned costs and $3,738,011 in funds put to better use




                                                       12
Management of Delivery Point Sequencing Percentage                           DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


over the next 2 years. Click here to go to Appendix C for our detail analysis and
calculation of the monetary impact.




                                                       13
Management of Delivery Point Sequencing Percentage                                    DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


         APPENDIX C: CALCULATION OF UNRECOVERABLE QUESTIONED COST
         AND FUNDS PUT TO BETTER USE - MANUAL CASING AND PULL DOWN

Additional details on our methodology and assumptions can be made available upon request.

Unrecoverable Questioned Cost - Manual Casing - The OIG identified $7,095,131 in
unrecoverable questioned costs for the Atlanta District unit locations for FYs 2006 ($4,140,245)
and 2007 ($2,954,886) for city carriers' manual casing of non-DPS mail. We used the Postal
Service's 2006 National Average Labor Rate table, http://blue.usps.gov/cape/page2.htm), for each
cost savings category. We assumed that the appropriate carrier level was CC224 on the rate
table. Our calculations were based on the following methodology and assumptions:
1. DPS Percentage Targets - We calculated a DPS target percentage of 90.21 percent for FYs
    2006 and 2007 based on the performance of the units serviced by the best practice location.
2. Estimated Excess Minutes Used @ 18 Letters Per Minute - We calculated this by dividing the
    DPS volume difference between targets by the Postal Service rate case standard for manual
    processing of 18 pieces per minute for each delivery unit location in the Atlanta District.
3. Excess Workhours Used - We calculated excess hours used for FYs 2006 and 2007 by
    dividing the estimated excess minutes used for manual processing by 60 minutes for each
    delivery unit location in the Atlanta District.

Unrecoverable Questioned Cost - Manual Pull Down -The OIG identified $2,479,692 million in
unrecoverable questioned costs for the Southeast Area Atlanta District unit locations for FYs 2006
($1,382,836) and 2007 (1,096,856) for manual pull down of the mail based on the following
methodology and assumptions:
1. Simulation Model - We created a simulation to calculate savings, assuming that the mail was
    random and had an equal probability of going into a carrier's case slot. We ran the simulation
    twice for each delivery unit location, simulating the pull down activity and the random casing of
    mail into a carrier's case. Our objective was to determine the difference in non-empty
    separations between the actual DPS and the DPS goal. The first time we ran the simulation,
    we used the (actual) DPS percentage and the second time we used the (standard) DPS goal.
    Based on the simulation, increasing the DPS percentage will reduce the amount of full (non-
    empty) separations.
2. Difference Between Separations – We calculated the difference between the number of full
    (non-empty) separations to determine how many less separations there will be to pull down
    per route on average if the DPS percentage could be raised to 90.21 percent for 2006 and
    2007.

Funds Put To Better Use - Manual Casing - The OIG identified $2,863,597 million in funds put
to better use for the Atlanta District unit locations for FYs 2008 ($1,777,521) and 2009
($1,086,076) for manual casing of mail based on the following methodology and assumptions:
1. Forecasted DPS Percentage Improvement - We determined the forecasted DPS percentage
    Improvement for FYs 2008 and 2009 based on the historical DPS percentage increase for
    each unit location in the Atlanta District. We needed a way to predict the DPS percentages
    expected to occur in FYs 2008 and 2009 in the absence of the OIG audit (our baseline). To
    do this we observed that, for FYs 2005 through 2007, the improvement in DPS percentage for
    a given delivery unit was related to the absolute value of the DPS percentage in an inverse
    way. For instance, the lower the DPS percentage started out, the larger the improvement; the

24
     City Carrier 2.




                                                       14
Management of Delivery Point Sequencing Percentage                                    DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District


   larger the DPS percentage started out, the smaller the improvement. We plotted the
   relationship of the actual DPS percentages and DPS improvement and calculated a trend line
   equation that captures this relationship.
2. Forecasted DPS Percentage Targets - We calculated a DPS target percentage of 90.96
   percent for FY 2008 and 91.46 percent for FY 2009 based on the DPS performance of the
   expected increase in DPS percentage of the best practice location and applied it to each
   delivery unit location in the Atlanta District.
3. Forecasted Minutes Questioned @ 18 Letters Per Minute - We calculated this for FYs 2008
   and 2009, by dividing the forecasted DPS volume difference between targets by the Postal
   Service's rate case standard for manual processing of 18 pieces per minute for each delivery
   unit location in the Atlanta District.
4. Forecasted Workhours Questioned - We calculated this for FYs 2008 and 2009 by dividing the
   forecasted minutes questioned by 60 minutes for each delivery unit location in the Atlanta
   District.

Funds Put To Better Use - Manual Pull Down - The OIG identified $874,414 in fund put to
better use for the Atlanta District unit locations for FYs 2008 ($610,202) and 2009 ($264,212) for
manual pull down of the mail based on the following methodology and assumptions:
1. Forecasted DPS Percentage Improvement - We determined the forecasted DPS percentage
    improvement for FYs 2008 and 2009 based on the historical DPS percentage increase for
    each delivery unit location in the Atlanta District. We needed a way to predict the DPS
    percentages, which are expected to occur in FYs 2008 and 2009 in the absence of the OIG
    audit (our baseline). To do this we observed that, for FYs 2005 through 2007, the
    improvement in DPS percentage for a given delivery unit was related to the absolute value of
    the DPS percentage in an inverse way. For instance, the lower the DPS percentage started
    out, the larger the improvement; the larger the DPS percentage started out, the smaller the
    improvement. We plotted the relationship of the actual DPS percentages and DPS
    improvement and calculated a trend line equation that captures this relationship.
2. Forecasted DPS Percentage Targets - We calculated a forecasted DPS target percentage of
    90.96 percent for FY 2008 and 91.46 percent for FY 2009 based on the DPS performance of
    the expected increase in DPS percentage of the best practices location and applied it to each
    delivery unit location in the Atlanta District.
3. Simulation Model - We created a simulation to calculate savings, assuming the mail was
    random and had an equal probability of going into a carrier case slot. We ran the simulation
    twice for each delivery unit location, simulating the pull down activity and the random casing of
    mail into a carrier case. Our objective was to determine the difference in non-empty
    separations between the actual DPS and the DPS goal. The first time we ran the simulation,
    we used the (actual) DPS percentages and the second time we used the (standard) DPS goal.
    Based on the simulation, increasing the DPS percentage will reduce the amount of full (non-
    empty) separations.
4. Difference Between Separations – We calculated the difference between the number of full
    (non-empty) separations to determine how many less separations there will be per route to
    pull down on average if the DPS percentage could be raised to 90.96 percent for 2008 and
    91.46 percent for 2009.
5. Total estimated Workhours Questioned - We obtained the total estimated workhours
    questioned by calculating the total number of routes by the estimated average pull down hours
    questioned per route.




                                                       15
Management of Delivery Point Sequencing Percentage                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District



                          APPENDIX D: MANAGEMENT’S COMMENTS




                                                       16
Management of Delivery Point Sequencing Percentage                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District




                                                       17
Management of Delivery Point Sequencing Percentage                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District




                                                       18
Management of Delivery Point Sequencing Percentage                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District




                                                       19
Management of Delivery Point Sequencing Percentage                DR-AR-08-005
 Increases for City Delivery – Southeast Area, Atlanta District




                                                       20
